       DEPARTMENT OF HEALTH & HUMAN SERVICES                                  OFFICE OF INSPECTOR GENERAL

                                                                              Office of Audit Services
                                                                              Region I
                                                                              John F. Kennedy Federal Building
                                                                              Room 2425
                                                                              Boston, MA 02203
                                                                              (617) 565-2684


APR 2 3 2009
Report Number: A-O 1-08-00530

Mr. James Elmore

National Goverrunent Services

Regional Vice President, Contract Administration

Mail Stop: INA 102-AF 13

8115 Knue Road

Indianapolis, Indiana 46250


Dear Mr. Elmore:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector

General (OIG), final report entitled "Review of Medicare Part A Claims Paid by National

Government Services for Interrupted Stays at Inpatient Psychiatric Facilities During Calendar

Years 2005 and 2006." We will forward a copy of this report to the HHS action official noted on

the following page for review and any action deemed necessary.


The HHS action official will make final determination as to actions taken on all matters reported.

We request that you respond to this official within 30 days from the date of this letter. Your

response should present any comments or additional information that you believe may have a

bearing on the final determination.


Pursuant to the Freedom of Information Act,S U.S.C. § 552, OIG reports generally are made

available to the public to the extent that information in the repoli is not subject to exemptions in

the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.


If you have any questions or comments about this report, please do not hesitate to call me, or

contact David Lamir, Audit Manager, at (617) 565-2704 or through e-mail at

David.Lamir@oig.hhs.gov. Please refer to report number A-OI-08-00530 in all correspondence.


                                               Sincerely,


                                           ~(J ~~~
                                              Michael J. rmstrong
                                              Regional Inspector General
                                                                            U
                                               for Audit Services


Enclosure
Page 2 - Mr. James Elmore


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
            th
601 East 12 Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



REVIEW OF MEDICARE PART A
 CLAIMS PAID BY NATIONAL
 GOVERNMENT SERVICES FOR
   INTERRUPTED STAYS AT
  INPATIENT PSYCHIATRIC
FACILITIES DURING CALENDAR
    YEARS 2005 AND 2006




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-01-08-00530
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

As mandated by the Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999,
together with the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, the
Centers for Medicare & Medicaid Services (CMS) developed and implemented a prospective
payment system for inpatient psychiatric facilities (IPF). The IPF prospective payment system
was effective for cost-reporting periods beginning on or after January 1, 2005. The prospective
payment represents reimbursement in full for the inpatient operating and capital-related costs of
furnishing Medicare-covered services in an IPF.

The IPF prospective payment system includes a 3-day policy for interrupted stays to discourage
inappropriate discharges and readmissions to IPFs. An interrupted stay occurs when a patient is
discharged from an IPF and admitted to the same or a different IPF within 3 consecutive days of
the discharge from the original IPF stay. For payment purposes, the stay is considered to be
continuous for applying the variable per diem adjustment. The variable per diem rate is a
standardized Federal rate that factors in higher payments at the beginning of a stay to cover the
higher cost of admission-related services, such as psychiatric evaluations, and declines over time
as treatment progresses.

To ensure proper payment, CMS instructed IPFs to bill for interrupted stays using a specific
occurrence span code with a “from” date that equals the day of discharge from the IPF and a
“through” date that is the last day the patient was not present in the IPF at midnight. In the IPF
Prospective Payment System Final Rule, CMS stated that the interrupted stay rule would apply
to circumstances in which a patient was discharged from one IPF, admitted to an intermediate
facility, and then discharged again to a second IPF. In addition, in a Medicare Claims Processing
Manual (Pub. 100-04) provision, CMS used the following examples to explain IPF billing
requirements for interrupted stays:

   •   “. . . [A] patient leaves IPF on 1/1 and returns to the same IPF on 1/3. This is considered
       an interrupted stay and the Occurrence Span Code 74 will show 1/1 – 1/2. Should the
       patient return to the IPF on 1/4, two bills will be allowed.”

   •   “In the cases where an IPF patient is discharged from IPF ‘A’ and within 3 days is
       readmitted to IPF ‘B,’ and IPF ‘B’ does not know about the patient’s immediately
       preceding hospitalization in IPF ‘A,’ then 2 bills will be allowed.”

National Government Services (NGS) is the Medicare Part A fiscal intermediary for selected
providers in Connecticut, Delaware, and New York. In calendar years (CY) 2005 and 2006,
NGS had administrative responsibility for processing and paying claims submitted by
institutional providers, including IPFs.




                                                 i
OBJECTIVE

Our objective was to determine whether IPFs billed claims paid by NGS in compliance with
Medicare prospective payment system regulations for interrupted stays.

SUMMARY OF FINDINGS

IPFs did not always bill claims paid by NGS in compliance with Medicare prospective payment
system regulations for interrupted stays. Specifically, our sample of 100 claims drawn from
2,211 claims that were potentially incorrectly billed as new stays indicated that, for 60 claims,
IPFs had incorrectly billed the second discharge as new stays rather than as part of interrupted
stays. For each of these claims, according to CMS guidance, the IPF should have known of the
beneficiary’s immediately preceding stay at the same or a different IPF. These 60 claims
resulted in overpayments totaling $17,027. For 38 of the remaining 40 sampled claims, we were
unable to determine whether the second IPF was aware of the beneficiary’s preceding stay in the
first IPF. Therefore, we were unable to determine whether these claims resulted in payment
errors. The other two sampled claims were for incorrectly billed stays during the IPFs’ transition
to the prospective payment system.

Based on these sample results, we estimate that NGS overpaid IPFs $393,440 for incorrectly
billed interrupted stays in CYs 2005 and 2006. We attribute the overpayments to internal control
weaknesses at the IPF billing level and NGS.

RECOMMENDATIONS

We recommend that NGS:

   •   adjust the claims for the 60 sampled stays that resulted in overpayments totaling $17,027
       and review the claims for 38 of the remaining 40 sampled stays to determine whether
       these claims resulted in payment errors,

   •   review our information on the additional 2,111 IPF interrupted stays with potential
       overpayments estimated at $393,440 and work with the IPFs that provided the services to
       recover any overpayments,

   •   analyze postpayment data for claims submitted after our review to ensure that IPFs billed
       the claims properly and NGS paid them correctly, and

   •   strengthen its education process and emphasize to IPFs the importance of reporting the
       correct occurrence span code to identify beneficiaries who were discharged from an IPF
       and readmitted to the same or a different IPF within 3 consecutive days.

NATIONAL GOVERNMENT SERVICES COMMMENTS

In comments on our draft report, NGS concurred with our findings. NGS agreed that for the 60
sampled claims, the second IPF could have known of the beneficiary’s prior IPF stay. However,


                                                ii
NGS stated that it could not implement all of our recommendations without further guidance
from CMS. NGS said that it is unaware of a Common Working File or Fiscal Intermediary
Shared System edit that recognizes when a beneficiary is discharged from one IPF and
readmitted to a second IPF. In addition, NGS stated that the Fiscal Intermediary Shared System
is not programmed to allow adjustments when a beneficiary is discharged from one IPF and
readmitted to a second IPF and reduce payments to correct the overpayment to the second IPF.
NGS maintained that, as a result, it is unable to adjust most of the sampled claims identified as
overpayments as well as the 2,111 claims identified as potential overpayments without additional
instruction from CMS or programming modifications to the Fiscal Intermediary Shared System.
NGS also stated that it would develop educational materials for IPFs after CMS provides
additional billing instructions as to how the second IPF should bill its claims.

NGS’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We acknowledge the current lack of Common Working File or shared system edits in place to
identify claims for which a beneficiary is discharged from one IPF and readmitted to a second
IPF within 3 days and ensure the appropriate payment for the second part of the interrupted stay.
Until sufficient edits are established to ensure compliance with the Medicare regulations, we
encourage NGS to work with CMS to implement our recommendations.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION ...............................................................................................................1

          BACKGROUND .......................................................................................................1
              Prospective Payment System for Inpatient Psychiatric Facilities..................1
              National Government Services ......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PROGAM REQUIREMENTS ..................................................................................4

          SECOND PART OF INTERRUPTED STAYS INCORRECTLY BILLED
           AS NEW STAYS....................................................................................................5

          PAYMENT ERRORS RESULTING FROM INCORRECT BILLING ...................6

          INTERNAL CONTROL WEAKNESSES ................................................................6

          RECOMMENDATIONS...........................................................................................7

          NATIONAL GOVERNMENT SERVICES COMMENTS ......................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................7

APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                    iv
                                              INTRODUCTION

BACKGROUND

Prospective Payment System for Inpatient Psychiatric Facilities

As mandated by the Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999,
together with the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, the
Centers for Medicare & Medicaid Services (CMS) developed and implemented a prospective
payment system for inpatient psychiatric facilities (IPF).1 The IPF prospective payment system
was effective for cost-reporting periods beginning on or after January 1, 2005. The prospective
payment represents reimbursement in full for the inpatient operating and capital-related costs of
furnishing Medicare-covered services in an IPF. CMS implemented the IPF prospective
payment system over a 3-year transition period. For cost reporting periods beginning on or after
July 1, 2008, payment is based entirely on the prospective payment system per diem rate. Before
that date, payment was based on a blend of the prospective payment system rate and the rate
payable under the old, facility-specific methodology.

The IPF prospective payment system uses a variable per diem rate, which is a standardized
Federal rate that includes higher payments at the beginning of a stay to cover the higher costs of
providing admission-related services, such as psychiatric evaluations, and declines over time as
treatment progresses. The IPF prospective payment system also uses outlier payments to provide
payment adjustments for IPF stays that have extraordinarily high costs.

The IPF prospective payment system includes a 3-day policy for interrupted stays to discourage
inappropriate discharges and readmissions to IPFs. An interrupted stay occurs when a patient is
discharged from an IPF and admitted to the same or a different IPF within 3 consecutive days of
the discharge from the original IPF stay. For example, if a patient is discharged from an IPF on
March 10 after an initial stay of 7 days and admitted to another IPF on March 12 (before
midnight of the third consecutive day), the “readmission” is considered a continuation of the
initial stay. Therefore, day 1 of the readmission will be considered day 8 of the combined stay
for purposes of the variable per diem rate and any applicable outlier payments.

To ensure that interrupted stays are considered continuous for applying the variable per diem
adjustments, CMS instructed IPFs to bill for interrupted stays using a specific occurrence span
code with a “from” date that equals the day of discharge from the IPF and a “through” date that
is the last day the patient was not present in the IPF at midnight. In the IPF Prospective Payment
System Final Rule, CMS stated that the interrupted stay rule would apply to circumstances in
which a patient was discharged from one IPF, admitted to an intermediate facility, and then
discharged again to a second IPF. In addition, in a Medicare Claims Processing Manual (Pub.
100-04) provision, CMS used the following examples to explain IPF billing requirements for
interrupted stays:



1
 The prospective payment system applies for inpatient services of psychiatric hospitals and psychiatric units of
acute-care hospitals. See the Medicare Claims Processing Manual, Pub. 100-04, § 190.1.
   •    “. . . [A] patient leaves IPF on 1/1 and returns to the same IPF on 1/3. This is considered
        an interrupted stay and the Occurrence Span Code 74 will show 1/1 – 1/2. Should the
        patient return to the IPF on 1/4, two bills will be allowed.”

   •    “In the cases where an IPF patient is discharged from IPF ‘A’ and within 3 days is
        readmitted to IPF ‘B,’ and IPF ‘B’ does not know about the patient’s immediately
        preceding hospitalization in IPF ‘A,’ then 2 bills will be allowed.”

National Government Services

National Government Services (NGS) is the Medicare Part A fiscal intermediary for selected
providers in Connecticut, Delaware, and New York. In calendar years (CY) 2005 and 2006,
NGS had administrative responsibility for processing and paying claims submitted by
institutional providers, including IPFs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether IPFs billed claims paid by NGS in compliance with
Medicare prospective payment system regulations for interrupted stays.

Scope

We reviewed Medicare Part A claims totaling $49.8 million for 2,211 new stays that were within
the 3-day window of a prior discharge from an IPF. The 2,211 claims were submitted by 157
IPFs and paid by NGS during CYs 2005 and 2006.

Our objective did not require an understanding or assessment of the complete internal control
structure at IPFs or NGS. Therefore, we limited our review of internal controls at IPFs and NGS
to obtaining an understanding of (1) IPFs’ procedures for submitting claims for beneficiaries
who were admitted to an IPF within 3 consecutive days of discharge from the same or a different
IPF and (2) NGS’s policies and procedures for paying such claims.

We performed our fieldwork from June through October 2008. Our fieldwork included site
visits to five IPFs in New York.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare regulations and CMS guidance regarding IPF billing and
        fiscal intermediary payments for interrupted stays,

   •    extracted paid claims data from CMS’s National Claims History file for CYs 2005 and
        2006,


                                                 2
   •   developed a computer application to identify stays billed as new stays and paid by NGS
       for beneficiaries who were discharged from an IPF and readmitted to the same or a
       different IPF within 3 consecutive calendar days,

   •   selected a statistical random sample of 100 claims from the population of 2,211 potential
       interrupted stays identified by the computer application to determine whether the stays
       were paid correctly (Appendix A),

   •   reviewed the applicable Common Working File records for the selected claims to validate
       the parameters of our computer match and to verify that the selected claims had not been
       canceled,

   •   reviewed incorrectly coded claims in our sample for beneficiaries discharged from one
       IPF and admitted to a different IPF to determine whether the second IPF could have
       reasonably been expected to know of the first IPF stay,

   •   contacted five IPFs to determine their procedures for submitting claims for interrupted
       stays,

   •   calculated the effects of the incorrect billing by using CMS’s PRICER program and
       NGS’s provider-specific information,

   •   estimated the total value of overpayments based on our sample results (Appendix B), and

   •   discussed the results of our review with NGS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

IPFs did not always bill claims paid by NGS in compliance with Medicare prospective payment
system regulations for interrupted stays. Specifically, our sample of 100 claims drawn from
2,211 claims that were potentially incorrectly billed as new stays indicated that, for 60 claims,
IPFs had incorrectly billed the second discharge as new stays rather than as part of interrupted
stays. For each of these claims, according to CMS guidance, the IPF should have known of the
beneficiary’s immediately preceding stay at the same or a different IPF. These 60 claims
resulted in overpayments totaling $17,027. For 38 of the remaining 40 sampled claims, we were
unable to determine whether the second IPF was aware of the beneficiary’s preceding stay in the
first IPF. Therefore, we were unable to determine whether these claims resulted in payment




                                                3
errors. The other two sampled claims were for incorrectly billed stays during the IPFs’ transition
to the prospective payment system. 2

Based on these sample results, we estimate that NGS overpaid IPFs $393,440 for incorrectly
billed interrupted stays in CYs 2005 and 2006. We attribute the overpayments to internal control
weaknesses at the IPF billing level and NGS.

PROGRAM REQUIREMENTS

Under IPF regulations, the Federal per diem payment is based on facility-level adjustments
applicable to the IPF, patient-level adjustments, and other policy adjustments as specified in 42
CFR § 412.424. One such policy adjustment is made for an interrupted stay in which a patient is
discharged from an IPF and is admitted to the same or another IPF within 3 consecutive calendar
days. The second stay is considered a continuation of the first stay for the purposes of
determining (1) the appropriate variable per diem adjustment and (2) whether the total cost meets
the criteria for outlier payments.

In the IPF prospective payment system final rule, published in the Federal Register (69 Fed. Reg.
66922 (Nov. 15, 2004)), CMS illustrated the application of the IPF interrupted stay policy using
an example of a patient who is discharged from a psychiatric unit of a hospital to receive acute
care and is then transferred to a freestanding psychiatric hospital at the completion of the hospital
stay rather than returning to the psychiatric unit. Under the interrupted stay policy, if the patient
is admitted to the psychiatric hospital within 3 days of the initial psychiatric unit stay, Medicare
will not pay the psychiatric hospital the variable per diem adjustments for the initial days of the
original psychiatric unit stay that would otherwise apply to the stay. In such a case, CMS
“would not pay the psychiatric hospital the variable per diem adjustments for the initial days of
original psychiatric stay otherwise applicable to the stay” because “the transferring hospital
would send the psychiatric hospital the patient’s medical record that will include information
regarding the prior psychiatric stay in accordance with the hospital condition of participation for
discharge planning (§ 482.43).” The purpose of this policy, CMS explained, is to prevent “the
‘shuffling’ of patients from hospital to hospital.”

In addition, in its Medicare Claims Processing Manual, Pub. 100-04, chapter 3, section 190.7.1,
CMS used the following examples to further explain IPF billing requirements: 3

    •   “. . . [A] patient leaves IPF on 1/1 and returns to the same IPF on 1/3. This is considered
        an interrupted stay and the Occurrence Span Code 74 will show 1/1 – 1/2. Should the
        patient return to the IPF on 1/4, two bills will be allowed.”



2
 These two claims resulted in overpayments totaling $8,832 and were not included in our estimated total value of
overpayments for incorrectly billed interrupted stays. Incorrectly billed stays during the IPF transition to the
prospective payment system are the subject of a previous Office of Inspector General report dated August 27, 2008
(A-01-07-00520).
3
 CMS also distributed this guidance in its Medicare Claims Processing Bulletin, Transmittal 384, CR 3541
(December 1, 2004).


                                                        4
   •   “In the cases where an IPF patient is discharged from IPF ‘A’ and within 3 days is
       readmitted to IPF ‘B,’ and IPF ‘B’ does not know about the patient’s immediately
       preceding hospitalization in IPF ‘A,’ then 2 bills will be allowed.”

SECOND PART OF INTERRUPTED STAYS INCORRECTLY BILLED AS NEW
STAYS

Our sample of 100 Medicare Part A claims that were potentially incorrectly billed as new stays
indicated that IPFs had not billed 60 of these claims in compliance with the IPF interrupted stay
provision of the prospective payment system. Specifically, IPFs incorrectly billed 60 stays after
the interruption as new stays and thus received full payment for the second part of the interrupted
stays instead of the adjusted payments that IPF regulations require. For 2 of the 60 stays, the
beneficiary was readmitted to the same IPF. For the remaining 58 incorrectly billed stays, the
beneficiary was readmitted to a different IPF. In each of these 58 cases, billing the stays as new
stays was contrary to CMS’s guidance in the final rule because either (1) the coding on the claim
showed that the beneficiary was discharged from the first IPF directly to the second IPF or (2)
the beneficiary’s claim history showed that the beneficiary was discharged directly from an
intermediate stay at an institutional provider to the second IPF, which would have received the
beneficiary’s medical records. Therefore, in both circumstances the second IPF should have
billed the claim correctly because, as stated in CMS’s guidance in the IPF prospective payment
system final rule, the transferring hospital would have sent the patient’s medical record, thus
informing the second IPF about the beneficiary’s immediately preceding stay at the first IPF.

For 38 of the remaining 40 sampled claims, we were unable to determine whether the second IPF
was aware of the beneficiary’s preceding stay in the first IPF because the first IPF coded the
claims as “beneficiary discharged to home.” Our further review of paid claim history did not
identify an intervening stay at an institutional provider followed by a discharge directly to the
second IPF. Therefore, we were unable to determine whether these claims resulted in payment
errors. The other two sampled claims were for incorrectly billed stays during the IPFs’ transition
to the prospective payment system.

In the following example, the second IPF received a full payment of $11,843 instead of an
adjusted payment of $11,150 because it incorrectly billed Medicare for a new stay rather than for
the second part of an interrupted stay.




                                                5
                          Interrupted Stay Billed as Two New Stays


              October 16, 2006
       Beneficiary admitted to first IPF


                      ↓
                                                                     IPF Claim #1:
              November 6, 2006                                 Correctly billed as a new stay
     Beneficiary discharged from first IPF                         Oct 16 - Nov 6, 2006
         and admitted to second IPF                              Medicare Paid $13,138



                                                                       IPF Claim #2:
             November 21, 2006                                 Incorrectly billed as a new stay
      Beneficiary discharged from second                            Nov 6 -Nov 21, 2006
         IPF to skilled nursing facility                          Medicare Paid $11,843


Pursuant to Federal regulations, the second IPF’s claim for the stay for November 6 through
November 21, 2006, should have been considered a continuation of the first stay for determining
the appropriate variable per diem adjustment.

PAYMENT ERRORS RESULTING FROM INCORRECT BILLING

To identify the effect of the incorrect billing, we combined each incorrectly billed interrupted
stay into a continuous stay and repriced the resulting continuous stays. Additionally, for
interrupted stays during which beneficiaries were readmitted to the same IPF, we combined the
charges for each stay to determine whether outlier payments would have been warranted. We
found that, during CYs 2005 and 2006, NGS made overpayments totaling $17,027 to IPFs for the
60 incorrectly billed interrupted stays.

Based on our sample results, we estimate that NGS overpaid IPFs a total of $393,440 for
incorrectly billed interrupted stays in CYs 2005 and 2006.

INTERNAL CONTROL WEAKNESSES

IPFs were either unaware of or did not follow Medicare regulations and therefore had not
established the necessary controls to ensure that they coded claims correctly to prevent
overpayments for interrupted stays. Additionally, NGS did not have procedures to identify IPF
interrupted stays and ensure that the claims were correctly paid.




                                               6
RECOMMENDATIONS

We recommend that NGS:

   •   adjust the claims for the 60 sampled stays that resulted in overpayments totaling $17,027
       and review the claims for 38 of the remaining 40 sampled stays to determine whether
       these claims resulted in payment errors,

   •   review our information on the additional 2,111 IPF interrupted stays with potential
       overpayments estimated at $393,440 and work with the IPFs that provided the services to
       recover any overpayments,

   •   analyze postpayment data for claims submitted after our review to ensure that IPFs billed
       the claims properly and NGS paid them correctly, and

   •   strengthen its education process and emphasize to IPFs the importance of reporting the
       correct occurrence span code to identify beneficiaries who were discharged from an IPF
       and readmitted to the same or a different IPF within 3 consecutive days.

NATIONAL GOVERNMENT SERVICES COMMMENTS

In comments on our draft report, NGS concurred with our findings. NGS agreed that for the 60
sampled claims, the second IPF could have known of the beneficiary’s prior IPF stay. However,
NGS stated that it could not implement all of our recommendations without further guidance
from CMS. NGS said that it is unaware of a Common Working File or Fiscal Intermediary
Shared System edit that recognizes when a beneficiary is discharged from one IPF and
readmitted to a second IPF. In addition, NGS stated that the Fiscal Intermediary Shared System
is not programmed to allow adjustments when a beneficiary is discharged from one IPF and
readmitted to a second IPF and reduce payments to correct the overpayment to the second IPF.
NGS maintained that, as a result, it is unable to adjust most of the sampled claims identified as
overpayments as well as the 2,111 claims identified as potential overpayments without additional
instruction from CMS or programming modifications to the Fiscal Intermediary Shared System.
NGS also stated that it would develop educational materials for IPFs after CMS provides
additional billing instructions as to how the second IPF should bill its claims.

NGS’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We acknowledge the current lack of Common Working File or shared system edits in place to
identify claims for which a beneficiary is discharged from one IPF and readmitted to a second
IPF within 3 days and ensure the appropriate payment for the second part of the interrupted stay.
Until sufficient edits are established to ensure compliance with the Medicare regulations, we
encourage NGS to work with CMS to implement our recommendations.




                                                7
APPENDIXES
                                                                                       APPENDIX A


                           SAMPLE DESIGN AND METHODOLOGY

OBJECTIVE

Our objective was to determine whether inpatient psychiatric facilities (IPF) billed claims paid by
National Government Services (NGS) in compliance with Medicare prospective payment system
regulations for interrupted stays.

POPULATION

Our population consisted of Medicare Part A claims for interrupted IPF stays that were paid by NGS
in calendar years (CY) 2005 and 2006.

SAMPLING FRAME

The sample frame was a database of 2,211 stays for CYs 2005 and 2006.

SAMPLE UNIT

The sample unit was the second part of an IPF stay in which a beneficiary was discharged from one
IPF and admitted to the same or another IPF within 3 days.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

We randomly selected 100 IPF claims (50 for CY 2005 and 50 for CY 2006).

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit Services,
statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the frame from 1 to 2,211. After generating 100
random numbers, we selected the corresponding frame items for our sample.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to estimate
the potential overpayments.
                                                                               APPENDIX B



                       SAMPLE RESULTS AND ESTIMATES

                                     Sample Results

Frame   Sample                          Number of Unallowable        Value of Unallowable
 Size     Size     Value of Sample        Interrupted Stays            Interrupted Stays

2,211    100            $1,273,443                 60                       $17,027




                           Estimated Unallowable Payments
                 (Limits calculated for a 90-percent confidence interval)

                        Pont estimate         $393,440
                        Lower limit           $298,845
                        Upper limit           $488,035
APPENDIX C
Page 1 of 2
APPENDIX C
Page 2 of 2
